3n tbe 6upretue (Court of the Eniteb 6tate5
No. 19-123
SHARONELL FULTON, ET AL., PETITIONERS
v.
CITY OF PHILADELPHIA, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURTS OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF OF HISTORIANS OF CHILD WELFARE
AS AMICI CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

I, Chanakya A. Sethi, counsel for the Historians of Child Welfare and a member of the
Bar of this Court, certify that the Brief of Historians of Child Welfare as Amici Curiae in
Support of Respondents in the above-captioned case contains 7,442 words, excluding the
parties of the brief that are exempted by Rule 33.1(d).

0)"
Chanakya A. Sethi
August 25, 2020

